U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Elton Vallare v. United States of America
S.Ct. No. 21-5631

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 7,
2021, and placed on the docket on September 9, 2021. The government’s response is due on
October 12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 11, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5631
VALLARE, ELTON
USA

BRADFORD WAYNE BOGAN
FEDERAL PUBLIC DEFENDER FOR THE
WESTERN DISTRICT O
727 E. CESAR E. CHAVEZ BLVD.
B-207
SAN ANTONIO, TX 78206
210-472-6700
BRAD_BOGAN@FD.ORG

